TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      More Careful Monitoring of Billings for
                      Working Capital Fund Administrative
                              Services Is Needed



                                           April 27, 2007

                              Reference Number: 2007-10-074




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 27, 2007


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – More Careful Monitoring of Billings for Working
                             Capital Fund Administrative Services Is Needed (Audit # 200610032)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has established adequate controls to effectively monitor and accurately record transactions
 related to the administrative services it receives from the Department of the Treasury Working
 Capital Fund (hereafter referred to as the WCF or the Fund). This is one of the coordinated
 audits being conducted in conjunction with the Treasury Office of Inspector General that provide
 comprehensive coverage of this critical, multibureau program. The WCF Fiscal Year 2007
 budget is $267 million; the IRS’ allocated share is $209 million. This review was included in
 our Fiscal Year 2006 Annual Audit Plan. The Treasury Office of Inspector General is presently
 evaluating whether costs charged by the Fund are appropriate and adequately supported, and
 whether the activities/programs are appropriate for inclusion in the Fund.

 Impact on the Taxpayer
 WCF billings to the IRS for actual costs incurred were not consistently subject to any type of
 review for accuracy or reasonableness by the IRS. This puts the IRS at risk of being unable to
 timely identify potential errors and overcharges. In addition, $34 million of the $97 million in
 total charges we reviewed were not accurately recorded by the IRS. Effective controls over
 Fund-related transactions are critical to the IRS’ ability to ensure accountability for its
 expenditures and to accurately report the results of its financial transactions to both internal and
 external stakeholders, including taxpayers.
                     More Careful Monitoring of Billings for Working Capital Fund
                                Administrative Services Is Needed




Synopsis
The WCF was established to provide common administrative services that benefit more than one
bureau within the Department of the Treasury and, in certain circumstances, other agencies. Its
purpose is to provide these services on a centralized basis, where they can be administered more
advantageously and economically, and it is funded through advance payments from various
Department of the Treasury bureaus, including the IRS. These advance payments are based on
estimated expenditures for the upcoming fiscal year.
Overall, the IRS has established adequate controls to support the proper recording of advance
payments made to the Fund. Specifically, the IRS developed detailed procedures which require
that all advance payments to the Fund initially be recorded as an asset in its records. This asset is
subsequently reduced by the IRS as billings related to Fund services are received throughout the
year. In addition, to more timely recognize expenses associated with the WCF, the IRS estimates
and accrues Fund expenses in its records monthly. These accruals are calculated based on a
weighted average of the prior 2 years’ actual expenses. This process allows the IRS to more
evenly reflect Fund-related costs throughout the fiscal year.
However, improvements are needed in two critical areas related to the IRS’ monitoring of the
administrative services it receives from the WCF. First, the IRS’ review of Department of the
Treasury billings for Fund services provided needs to be significantly improved. The IRS did
not subject its Fund billings for actual costs incurred to any type of review for accuracy or
compare them to current year estimated program expenditures for reasonableness. Compounding
the risk of this condition is the magnitude of these expenses. For example, billings to the IRS for
actual WCF services totaled more than $100 million during the period October 2005 through
June 2006. At the time of our review, the IRS had no procedures in place requiring the review
and certification of Fund billings as accurate before they are entered into its general ledger1 as
valid expenses.
A number of IRS managers we interviewed from the functions responsible for oversight of
Fund-related services informed us they relied entirely on the Department of the Treasury to not
make any mistakes or errors in the calculation of the amounts billed to the IRS for Fund costs.
However, a recent Treasury Inspector General for Tax Administration report noted the
Department of the Treasury made mathematical errors that resulted in the issuance of overstated
WCF billing documents, including more than $526,000 erroneously billed to the IRS for
personnel action processing-related services.2 The Treasury Office of Inspector General is
currently conducting a separate audit of a sample of Fund expenses billed by the Department of

1
  A ledger in which all transactions to record an entity’s financial events are posted, either individually or in
summary.
2
  The Department of the Treasury Needs to Improve Its Management of Employee Express System Funds (Reference
Number 2005-10-153, dated September 2005).
                                                                                                                2
                         More Careful Monitoring of Billings for Working Capital Fund
                                    Administrative Services Is Needed



the Treasury in Fiscal Year 2006. Accordingly, we did not perform any indepth testing of the
specific costs on which the Fund billings are based.
Second, expense transactions relating to actual WCF expenditures were not always accurately
recorded. Our review of a random sample of Fund-related expenditures recorded in the IRS
general ledger during the period October 2005 through June 2006 identified a number of
instances in which material financial transactions were misclassified. Similarly, WCF program
expenditures were frequently allocated to obligations3 not directly related to the expenditures. In
total, $34 million of the $97 million in charges we reviewed were misclassified. Inaccurate
financial management information compromises the ability of the IRS to readily monitor costs
and produce reliable accounting data.
Finally, the Department of the Treasury was unable to readily substantiate the need for more than
$60 million it accumulated from the IRS and held in the WCF as of December 2006. We have
shared this information with Treasury Office of Inspector General staff, who indicated they will
be performing further detailed testing in this area.

Recommendations
We recommended the Chief Financial Officer develop procedures requiring that Fund billings be
reviewed and certified as accurate before entry into IRS records as valid expenses, request that
the Department of the Treasury include additional information on the Fund billing statements to
better facilitate the review and accurate recording of Fund-related transactions, revise procedures
to require that Fund expenditures be allocated only to obligations directly related to the
expenditures, and periodically review expenditures related to the Fund to ensure the account
classifications are consistent with the definitions of the Fund services being received.

Response
IRS management agreed with all of our recommendations. The Chief Financial Officer will
develop and implement policies and procedures providing guidance to the business units for
review and certification of WCF billings; identify additional information needed for the IRS to
review and validate its portion of the Fund billing statements and request that the Department of
the Treasury provide such information with the Fund billing statement; and revise internal
procedures to ensure proper posting of WCF expenses, based on supporting documentation
provided by the Department of the Treasury and IRS business units. Management’s complete
response to the draft report is included as Appendix V.


3
    Obligations are budgetary journal entries that allocate resources for a specific planned purpose.


                                                                                                        3
                 More Careful Monitoring of Billings for Working Capital Fund
                            Administrative Services Is Needed



Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                              4
                         More Careful Monitoring of Billings for Working Capital Fund
                                     Administrative Services Is Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Adequate Procedures Have Been Established to Guide the Recording
          of Advance Payments Made to the Department of the Treasury
          Working Capital Fund...................................................................................Page 3
          Controls Over the Review of Billings for Services Provided Through
          the Working Capital Fund Need to Be Improved .........................................Page 3
                    Recommendations 1 and 2: ................................................Page 4

          Transactions Relating to Working Capital Fund Expenditures Were
          Not Always Accurately Recorded ................................................................Page 5
                    Recommendation 3:..........................................................Page 6

          The Department of the Treasury Was Unable to Readily Substantiate the
          Need for a Significant Amount of the Funds It Had Accumulated From
          the Internal Revenue Service for the Working Capital Fund........................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measure ................................................................Page 11
          Appendix V – Management’s Response to the Draft Report .......................Page 12
            More Careful Monitoring of Billings for Working Capital Fund
                        Administrative Services Is Needed




                          Abbreviations

CFO                 Chief Financial Officer
FY                  Fiscal Year
IRS                 Internal Revenue Service
WCF; Fund           Working Capital Fund
                         More Careful Monitoring of Billings for Working Capital Fund
                                     Administrative Services Is Needed




                                                Background

The Department of the Treasury Working Capital Fund (hereafter referred to as the WCF or the
Fund) was established to provide common administrative services that benefit more than one
Department of the Treasury bureau or entity.1 Services provided by the Fund include an
automated human resources system and a centralized data network and management system.
The Fund also provides support services in the areas of emergency preparedness, safety, and
health. The WCF Fiscal Year (FY) 2006 budget was $221 million; the Internal Revenue
Service’s (IRS) allocated share was $161 million. The Fund FY 2007 budget is $267 million;
the IRS’ allocated share is $209 million.
The WCF is a revolving, no-year fund, without dollar limitation, that is funded through advance
payments from Department of the Treasury bureaus. These advance payments represent cash
collected in advance of the services provided and are based on estimated expenditures for the
upcoming fiscal year. The Fund advance balance for each Department of the Treasury bureau is
periodically reduced as expenses are incurred and posted to each customer’s account. Any Fund
balance remaining at fiscal yearend, which was not obligated, may be used to meet the
requirements in the next fiscal year. This unused funding is referred to as a carryover.
The Department of the Treasury notifies each of its bureaus of the amount of its annual advance
payment via the WCF collection letter, which details the estimated funding requirements for each
service provided through the Fund and includes a charge for the overhead associated with
administering it. The Fund collection letter specifies that the advance payment will be collected
via the Intra-governmental Payment and Collection system within 2 weeks of the date of the
letter, unless the bureau contacts the WCF Manager with a concern or request for further
clarification.
The Department of the Treasury WCF transactions primarily affect the IRS’ budget, cash, and
expense accounting cycles. Responsibility within the IRS for financial controls over
Fund-related transactions is shared between the Office of the Chief Financial Officer (CFO) and
the various business units that receive goods and services through the Fund.
Specifically, the CFO Corporate Performance Budgeting Unit has overall responsibility for
monitoring and controlling transfers between the IRS and other agencies, including those related
to the WCF. These responsibilities include coordinating the issuance of Fund estimates to all
IRS Financial Plan Managers. The CFO Corporate Performance Budgeting Unit also provides
guidance regarding the processing of obligation2 documents; examines financial plans monthly;


1
    31 United States Code Section 322 (2003).
2
    Obligations are budgetary journal entries that allocate resources for a specific planned purpose.
                                                                                                        Page 1
                  More Careful Monitoring of Billings for Working Capital Fund
                              Administrative Services Is Needed



and has established Business Unit Analysts, who serve as liaisons with the business units to
facilitate the Unit’s activities.
The Beckley Finance Center (located in Beckley, West Virginia, and part of the CFO Internal
Financial Management Unit) is responsible for processing IRS-wide disbursements, including
those related to the WCF. The Beckley Finance Center also posts, maintains, and monitors all
suspense accounts related to Intra-governmental Payment and Collection system transactions and
serves as a liaison with the business units on financial reconciliations, reports, and reporting
requirements.
This review was performed at the IRS National Headquarters in Washington, D.C., in the offices
of the Chief Financial Officer; Chief Information Officer; Chief, Agency-Wide Shared Services;
and Chief, Criminal Investigation. We also performed work at the Beckley Finance Center. This
review was performed during the period August 2006 through January 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                           Page 2
                   More Careful Monitoring of Billings for Working Capital Fund
                               Administrative Services Is Needed




                                 Results of Review

Adequate Procedures Have Been Established to Guide the Recording
of Advance Payments Made to the Department of the Treasury
Working Capital Fund
Overall, the IRS has established adequate controls to support the proper recording of advance
payments made to the WCF. Specifically, the IRS developed detailed procedures which require
that all advance payments to the Fund initially be recorded as an asset in its records. This asset is
subsequently reduced by the IRS as billings related to Fund services are received throughout the
year. In addition, to more timely recognize expenses associated with the WCF, the IRS estimates
and accrues expenses in its records monthly. These accruals are calculated based on a weighted
average of the prior 2 years’ actual expenses. This process allows the IRS to more evenly reflect
Fund-related costs throughout the fiscal year.
However, improvements are needed in two critical areas related to the IRS’ monitoring of the
administrative services it receives from the WCF.
   •   Controls over the review of billings for services need to be improved.
   •   Transactions relating to actual expenditures were not always accurately recorded.

Controls Over the Review of Billings for Services Provided Through
the Working Capital Fund Need to Be Improved
The Department of the Treasury reports actual expenditures related to WCF services to
participating agencies via billings that are generally issued quarterly. These billings report
(1) actual expenditures for the various programs provided through the Fund to the IRS and
(2) the Fund advance balance remaining after the current expenditures have been applied.
The IRS did not subject its Fund billings for actual costs incurred to any type of review for
accuracy or compare them to current year estimated program expenditures for reasonableness.
This puts the IRS at risk of being unable to timely identify potential errors and overcharges.
Billings to the IRS for actual WCF services totaled more than $100 million during the period of
October 2005 through June 2006. In addition, the Fund is comprised of 38 programs and
provides a variety of services in areas such as human resources, data networking and
management, emergency preparedness, and safety and health. At the time of our review, the IRS



                                                                                                 Page 3
                     More Careful Monitoring of Billings for Working Capital Fund
                                 Administrative Services Is Needed



had no procedures in place requiring the review and certification of billings as accurate before
they are entered into its general ledger3 as valid expenses.
A number of IRS managers we interviewed from the functions responsible for oversight of
Fund-related services informed us they relied entirely on the Department of the Treasury to not
make any mistakes or errors in the calculation of the amounts billed to the IRS for WCF costs.
However, a recent Treasury Inspector General for Tax Administration report noted the
Department of the Treasury made mathematical errors that resulted in the issuance of overstated
Fund billing documents, including more than $526,000 erroneously billed to the IRS for
personnel action processing-related services.4 An indepth review of a sample of Fund expenses
billed by the Department of the Treasury in FY 2006 will be completed as part of a separate audit
presently being conducted by the Treasury Office of Inspector General. Accordingly, we did not
perform any indepth testing of the specific costs on which the Fund billings are based.
Also, the IRS’ ability to readily identify errors in WCF billings would be significantly enhanced
if the information on the billing statements were expanded in two key areas. First, the current
billings contain totals only by type of service and do not include any breakdown as to type of
cost such as salary, rent, or equipment. Second, the billings do not specify the budget year
associated with the program costs reported. Adding this additional information would allow the
IRS to much more quickly and easily compare billings to budgeted costs and identify significant
variances for follow-up. All of the information necessary to provide this additional data is
already accumulated by the Department of the Treasury in the accounting systems used to
compile the Fund billings. The Treasury Office of lnspector General will also be evaluating the
overall clarity of information provided in connection with the operation of the WCF as part of its
ongoing review.

Recommendations
Recommendation 1: The CFO should develop procedures requiring that Fund billings be
reviewed and certified as accurate before entry into IRS records as valid expenses.
        Management’s Response: IRS management agreed with this recommendation. The
        CFO will develop and implement policies and procedures providing guidance to the
        business units for review and certification of WCF billings.
Recommendation 2: The CFO should request that the Department of the Treasury include
additional information on the Fund billing statements to better facilitate the review and accurate
recording of Fund-related transactions. Specifically, the information should include a


3
  A ledger in which all transactions to record an entity’s financial events are posted, either individually or in
summary.
4
  The Department of the Treasury Needs to Improve Its Management of Employee Express System Funds (Reference
Number 2005-10-153, dated September 2005).
                                                                                                         Page 4
                        More Careful Monitoring of Billings for Working Capital Fund
                                    Administrative Services Is Needed



breakdown as to type of cost being billed such as salary, rent, or equipment and specify the
budget year associated with the program costs reported.
           Management’s Response: IRS management agreed with this recommendation. The
           CFO will identify additional information needed for the IRS to review and validate its
           portion of the WCF billing statements and request that the Department of the Treasury
           provide such information with the Fund billing statement.

Transactions Relating to Working Capital Fund Expenditures Were
Not Always Accurately Recorded
At the beginning of each fiscal year, the IRS records a series of obligations in its general ledger
to reflect anticipated expenditures relating to the WCF. These entries also establish the specific
general ledger account that will be used to track the expenditures when they are eventually
incurred. When the IRS receives the quarterly Fund billings from the Department of the
Treasury, it should record the actual expenditures in the appropriate general ledger accounts and
reduce the balance of the associated obligations.
However, our review of a random sample of Fund-related expenditures recorded in the IRS
general ledger during the period October 2005 through June 2006 identified a number of
instances in which material financial transactions were misclassified. For example, expenses
related to E-Government Enterprise Solutions,5 totaling $801,224, were recorded as local
telephone expenses in the IRS’ records; expenses related to Fund Cyber Security Initiatives,
totaling $231,487, were recorded as an expense related to guard services; and
Telecommunications System-related expenses, totaling $435,273, were recorded as a
management and professional support-related expense. Similarly, WCF program expenditures
were frequently allocated to obligations not directly related to the expenditures. For example,
emergency preparedness-related services, totaling $215,395, were allocated to an obligation
established by the IRS to allocate resources for accounting system-related services. In total,
$34 million of the $97 million in charges we reviewed were misclassified. Appendix IV presents
details on the reliability of information outcome measure resulting from the identification of this
error.
These misclassifications are primarily attributable to the IRS’ policy of first applying current
Fund-related expenditures to comparable, existing aged WCF obligations and then, if
comparable aged WCF obligations were depleted, to aged obligations that were not directly
related to the expenditures. Inaccurate financial management information compromises the
ability of the IRS to readily monitor costs and produce reliable accounting data.




5
    A program dedicated to leveraging innovative information technology solutions.
                                                                                             Page 5
                  More Careful Monitoring of Billings for Working Capital Fund
                              Administrative Services Is Needed



Recommendation
Recommendation 3: The CFO should revise procedures to require that Fund expenditures be
allocated only to obligations directly related to the expenditures. Expenditures related to the
Fund should also be periodically reviewed to ensure the account classifications are consistent
with the definitions of the WCF services being received.
       Management’s Response: IRS management agreed with this recommendation. The
       CFO will revise internal procedures to ensure proper posting of WCF expenses, based on
       supporting documentation provided by the Department of the Treasury and IRS business
       units.

The Department of the Treasury Was Unable to Readily Substantiate
the Need for a Significant Amount of the Funds It Had Accumulated
From the Internal Revenue Service for the Working Capital Fund
The Department of the Treasury was unable to readily substantiate the need for more than $60
million it accumulated from the IRS and held in the WCF of December 2006. Department of the
Treasury WCF staff informed us these accumulated funds represent monies obligated for planned
future expenditures. However, the WCF program office was unable to readily identify when the
monies were obligated, the purpose of the obligation, or whether the obligation is still valid. We
have shared this information with Treasury Office of Inspector General staff, who indicated they
will be performing further detailed testing in this area. As a result, we are making no
recommendation regarding this issue.




                                                                                           Page 6
                      More Careful Monitoring of Billings for Working Capital Fund
                                  Administrative Services Is Needed



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has established adequate
controls to effectively monitor and accurately record transactions related to the administrative
services it receives from the Department of the Treasury WCF (also referred to as the Fund). To
accomplish our objective, we:
I.       Determined whether the IRS established adequate financial controls to effectively
         administer its participation in the WCF and to ensure Fund budget-related transactions
         were accurately recorded.
         A. Determined whether the IRS adequately reviewed the annual program budget
            estimate and cost allocations.
         B. Ascertained whether the IRS effectively managed its budgetary resources and
            accurately recorded budget transactions related to the Fund.
II.      Determined whether the IRS effectively reviewed the WCF charges to ensure expenses
         were properly identified, allocated, and supported by sufficient/reliable documentation to
         confirm their receipt and acceptance.
         A. Interviewed IRS CFO Internal Financial Management Unit personnel regarding the
            process used to review and reconcile the charges.
         B. Flowcharted the charge review and reconciliation process and identified key controls.
         C. Determined whether the IRS effectively reviewed the charges.
III.     Determined whether the IRS continually monitored its WCF account balance, including
         the amounts and disposition of any funds that remained unused at yearend.
IV.      Determined whether the Department of the Treasury established effective controls to
         ensure it does not accumulate excessive funds in the WCF.
We used a stratified random sampling method to obtain a sample of IRS WCF program charges
for the first 3 quarters of FY 2006 (October 2005-June 2006) from the IRS general ledger.1 We
separated into 2 strata the population of 32 charges, totaling $100,393,268. The first stratum
included all charges greater than or equal to $1 million. The second stratum included all charges
less than $1 million. We sampled all items in the first stratum and selected a random sample


1
 A ledger in which all transactions to record an entity’s financial events are posted, either individually or in
summary.
                                                                                                                   Page 7
                  More Careful Monitoring of Billings for Working Capital Fund
                              Administrative Services Is Needed



from the second stratum. This resulted in a sample size of 18 IRS program charges, totaling
$96,540,612. We used a stratified random sampling method because it allowed us to place
additional emphasis on large-dollar transactions, while still maintaining the overall randomness
of our sample.
As part of our evaluation of controls over Fund transactions, we reviewed computer-processed
data from the IRS general ledger pertaining to FY 2006 Fund-related transactions. To assess the
reliability of these data, we compared the data to source input documents and the quarterly
Department of the Treasury WCF billings. We also interviewed IRS managers responsible for
oversight of Fund-related services regarding selected transactions. Our overall purpose in using
these data was to test the operation of selected financial management processes and internal
controls. As discussed in the report body, we found that expense transactions relating to actual
Fund expenditures were not always accurately recorded. Similarly, WCF program expenditures
were frequently allocated to obligations not directly related to the expenditures.




                                                                                           Page 8
                 More Careful Monitoring of Billings for Working Capital Fund
                             Administrative Services Is Needed



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Philip A. Smith, Lead Auditor
Richard Louden, Senior Auditor
Kanika Kals, Auditor
Rashme Sawhney, Auditor




                                                                                        Page 9
                 More Careful Monitoring of Billings for Working Capital Fund
                             Administrative Services Is Needed



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Chief Information Officer OS:CIO
Deputy Chief, Criminal Investigation SE:CI
Deputy Chief Financial Officer OS:CFO
Deputy Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Financial Officer OS:CFO




                                                                         Page 10
                      More Careful Monitoring of Billings for Working Capital Fund
                                  Administrative Services Is Needed



                                                                                                    Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $34,485,176 in misclassified expenditures (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine whether the IRS accurately recorded transactions related to Department of the
Treasury WCF expenditures, we analyzed a stratified random sample of 18 IRS Fund program
charges totaling $96,540,612 from the IRS general ledger’s1 total population of 32 IRS Fund
program charges totaling $100,393,268 for the first 3 quarters of FY 2006. Our analysis of the
18 IRS program charges determined $34,485,176 in total charges were misclassified. These
misclassifications are primarily attributable to the IRS’ policy of first applying current
Fund-related expenditures to comparable, existing aged Fund obligations and then, if comparable
aged Fund obligations were depleted, to aged obligations that were not directly related to the
expenditures.




1
 A ledger in which all transactions to record an entity’s financial events are posted, either individually or in
summary.
                                                                                                               Page 11
     More Careful Monitoring of Billings for Working Capital Fund
                 Administrative Services Is Needed



                                                       Appendix V

Management’s Response to the Draft Report




                                                             Page 12
More Careful Monitoring of Billings for Working Capital Fund
            Administrative Services Is Needed




                                                        Page 13
More Careful Monitoring of Billings for Working Capital Fund
            Administrative Services Is Needed




                                                        Page 14
More Careful Monitoring of Billings for Working Capital Fund
            Administrative Services Is Needed




                                                        Page 15
